<html>
<title> - SEEKING JUSTICE FOR VICTIMS OF PALESTINIAN TERRORISM IN ISRAEL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




     SEEKING JUSTICE FOR VICTIMS OF PALESTINIAN TERRORISM IN ISRAEL

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2016

                               __________

                           Serial No. 114-64

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-555 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
     Art Arthur, Staff Director, Subcommittee on National Security
                          Mike Howell, Counsel
                           Willie Marx, Clerk
                   Subcommittee on National Security

                    RON DESANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 2, 2016.................................     1

                               WITNESSES

Mr. Brad Wiegmann, Deputy Assistant Attorney General, National 
  Security Division, U.S. Department of Justice
    Oral Statement...............................................     5
Ms. Sarri Singer, Founder and Director, Strength to Strength
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. Peter Schwartz, Uncle of a Victim of Terrorism
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Arnold Roth, Father of a Victim of Terrorism
    Oral Statement...............................................    19
    Written Statement............................................    22

                                APPENDIX

Submission to the Subcommittee on National Security of the 
  Committee on Oversight and Government Reform, From Sherri 
  Mandel, Mother of Koby Mandell.................................    48
Submission From Alan Bauer, A Victim and Father of a Victim of 
  Palestinian Terrorism..........................................    49
Statement From Mark Sokolow, A Victim of Palestinian Terrorism...    53
Statement of Farley Weiss, President of the National Council of 
  Young Israel...................................................    55
 
     SEEKING JUSTICE FOR VICTIMS OF PALESTINIAN TERRORISM IN ISRAEL

                              ----------                              


                       Tuesday, February 2, 2016

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Mica, Lynch, Lieu, and 
Kelly.
    Also Present: Representative Meadows.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time. And we do have floor votes 
pending. It's just one 15-minute vote. I'm going to give my 
opening statement, and if the vote has not been called, then 
we'll go with the opening statements of the witnesses. Once the 
vote's called, my plan is to just recess the hearing, allow 
members to vote, and then come back and reconvene.
    Since the signing of the Oslo Accords in 1993, more than 64 
Americans, including two unborn children, have been murdered by 
Palestinian terrorists in Israel and the disputed territories. 
Some of them were tourists, some were students, some were 
living and working in Israel. Many were Jewish, but some were 
not. The stories of these American victims are heart wrenching. 
In 1996, Matthew Eisenfeld was a young graduate of Yale 
University who was studying abroad in Israel. He and his 
girlfriend, Sara Duker from New Jersey, had the misfortune to 
ride the number 18 bus that was blown up by Palestinian 
terrorists. Matthew's mother, Vicki, later bemoaned the quote, 
``lack of justice. It makes me feel like my son's blood is less 
American,'' unquote.
    In 2002, Americans Dina Carter, Benjamin Blutstein, Marla 
Bennett, Janis Coulter, and David Gritz were studying at Hebrew 
University in Jerusalem. They were eating in the school 
cafeteria when Palestinian terrorists detonated a bomb inside 
the cafeteria, killing them all.
    Malki Roth was a beautiful and talented 15-year-old girl, 
who was eating at the Sbarro Pizza Restaurant on Jaffa Road in 
Jerusalem on August 9th, 2001, when a Palestinian suicide 
bomber blew himself up. He took 15 civilians with him, 
including Malki and another American, Judith Greenbaum, who was 
pregnant at the time. The person responsible for planning and 
executing this dastardly attack, Ahlam Tamimi, has boasted 
about this many times on video, yet, she resides in Jordan and 
hosts a television show for Hamas. We are honored to have Mr. 
Arnold Roth with us at today's hearing. He has traveled from 
Jerusalem, and we are looking forward to hearing his testimony.
    So thank you for joining us, sir.
    In 2001, Koby Mandell was a 13-year-old American boy who 
went on a hike with an Israeli friend, Yosef Ishran. They 
didn't come home, and their parents were worried. Their bodies 
were later found in a cave. They were so brutally bludgeoned 
that dental records were needed to positively identify the 
bodies. More than 10 years ago, the memories of American 
victims of terrorism, such as Koby and others, provide an 
inspiration for a bill bearing Koby's name, which became the 
legislative source for the opening of the Office of Justice for 
Victims of Overseas Terrorism within the Department of Justice.
    The American people overwhelmingly believe that terrorists 
who kill Americans abroad must face justice. To this end, the 
office was designed with a purpose of ensuring, quote, ``that 
the investigation and prosecution of terrorist deaths of 
American citizens overseas are a high priority within the 
Department of Justice.
    The families of the victims of terrorism and their 
advocates celebrated the creation of the office in the hope 
that justice would be sought and achieved for the victims of 
terrorist attacks. Indeed, when commemorating the establishment 
of the new office, then-Attorney General Alberto Gonzalez 
remarked that it would guarantee, quote, ``A voice for the 
victims and their families in the investigation and prosecution 
of terrorists who prey on American overseas,'' end quote.
    Yet, DOJ has not been able to cite one example for this 
committee of even a single terrorist that has been prosecuted 
in the United States for any of the 64 attacks against 
Americans in Israel. Indeed, many of these terrorists roam free 
as a result of prisoner exchanges or evasions. This is not what 
Congress intended. This is not what the American people want. 
And this does not provide the justice to the victims' families 
that has been so tragically elusive.
    In fact, the mother of Koby Mandell called the office, 
quote, ``an affront to her son's name.'' The case of Ahlam 
Tamimi is a good example of the DOJ's failure. She is a 
terrorist who helped orchestrate the bombing that killed Malki 
Roth and Judith Greenbaum. She was released from an Israeli 
prison in 2011 as part of a prisoner exchange with the 
Palestine authority, but she's bragged about her conduct and 
has maintained a consistent presence on a Hamas television 
station, and, yet, this malignant woman continues to roam free, 
sowing the seeds of hate.
    When the committee questioned the DOJ about this case, the 
Department declined to comment. If, in fact, bringing to 
justice the perpetrators of terrorism against Americans in 
Israel is a high priority for the DOJ, then, surely, people of 
this nature should be prosecuted for their crimes.
    This afternoon, we will hear from those who might have been 
harmed in terrorist attacks or have lost loved ones. I thank 
them for their courage to speak out on this important issue. I 
also ask unanimous consent to insert into the record statements 
from individuals who have been impacted by terrorism. We have 
received testimony from Sherri Mandell, mother of Koby Mandell; 
Alan Bauer, a victim and father of a victim; and Mark Sokolow, 
whose family was in a terrorist attack in 2002, as well as the 
National Council of Young Israel. Israel is a magnet for 
terrorist attacks because it is a pro-Western Democratic nation 
of biblical significance. When Americans are the victims of 
terrorist attacks in Israel, they are, in a sense, being 
attacked for the shared values that bind our two nations, 
values that drive the jihadists to consume themselves in a 
culture of hate. We cannot allow the lives of our own American 
citizens to be devalued as merely pawns on a diplomatic 
chessboard. This effectively excuses the terrorist, invites 
more attacks, and leaves lasting scars on our own citizens due 
to justice being denied.
    I look forward to today's testimony and eagerly await 
progress on bringing justice to the American victims of 
terrorism in Israel.
    And with that, I am going to recess the hearing for 5 
minutes. We have 12 minutes left on the clock. I'm going to go 
vote. Once we have some other members come back, we will 
reconvene. So I thank you for your patience, and I look forward 
to reconvening the hearing in about 15 minutes.
    The hearing is in recess.
    [Recess.]
    Mr. DeSantis. The hearing will come to order. We are 
reconvened. Sorry about the delay, but we should be able to 
finish the hearing without having any more breaks for votes.
    I now recognize the ranking member of the Subcommittee on 
National Security, Mr. Lynch, for his opening statement.
    Mr. Lynch. Thank you very much, Mr. Chairman. You obviously 
run a little faster than I do from the last series of votes, 
but I would like to thank you for holding this hearing to 
examine the assistance to U.S. victims of terrorism abroad. And 
I also would like to thank our witnesses here today for your 
willingness to help this committee with its work.
    Ms. Singer, Mr. Schwartz, and Mr. Roth, I would like to 
extend our deepest appreciation on both sides of the aisle for 
your testimony here today. And as always, our thoughts and 
prayers remain with you and your families for the unimaginable 
pain and the loss that you have endured. We also commend you 
for your dedication and continued work on behalf of U.S. 
victims of overseas terrorism.
    In the wake of 9/11, a succession of horrific terrorist 
attacks targeting, or affecting U.S. citizens abroad, occurred 
around the world. These included devastating bombings and other 
violence in Israel that injured and killed Americans, as well 
as terrorist attacks in Bali, Saudi Arabia, India, Pakistan, 
and the Philippines. In light of this threat of terrorism 
against U.S. citizens abroad, Congress established the Office 
of Justice for Victims of Overseas Terrorism in December of 
2004 to, quote, ``Ensure that the investigation and prosecution 
of deaths of American citizens overseas are a high priority 
within the Department of Justice.''
    Pursuant to the implementing memorandum issued by U.S. 
Attorney Alberto Gonzalez in May of 2005, the Office of Justice 
for Victims of Overseas Terrorism, or OVT--I'll try not to use 
that acronym--is responsible for monitoring investigations and 
prosecutions relating to terrorist attacks against Americans 
abroad. The Office of Justice for Victims of Overseas Terrorism 
also works with the FBI, United States Attorney General's 
offices, and other components within the Department of Justice, 
to safeguard the rights of U.S. citizens, victims, and their 
families. As noted by then-Attorney Gonzalez, the FBI is the 
leading U.S. agency for terrorism investigation involving U.S. 
citizens. Department of Justice criminal division, and its 93 
U.S. attorneys are primarily in charge of terrorism-related 
prosecutions, along with the National Security Division's 
effort to combat terrorism.
    As evidenced by recent events, the mission of the OVT 
remains critical in the face of relentless terrorism plots and 
attacks perpetrated by the Islamic State, Hamas, Al Qaeda, 
Jabhat al-Nusra, and other terrorist organizations worldwide. 
Just last week, I arrived in Istanbul, Turkey, on an oversight 
delegation only 4 days after a suicide bombing occurred in the 
city's Sultanahmet Square, an area heavily frequented by 
international tourists. I had been there previously with my 
family, my wife and daughter. And I also traveled to Beirut, 
Lebanon, a site of a double suicide bombing in November of 2005 
that killed two American citizens and a permanent U.S. 
resident.
    The U.S. Department of Homeland Security-sponsored national 
consortium for the study of terrorism reports that over 100 
Americans were killed by terrorists' violence worldwide between 
September 11, 2001, and 2014. In addition, the State Department 
recently estimated that approximately 7.6 million Americans are 
living abroad, more than 70 million Americans travel 
internationally every year.
    We must make every effort to ensure that U.S. victims of 
overseas terrorism and their families are afforded the justice 
they deserve. To the this end, it's imperative that we conduct 
meaningful oversight of the Department of Justice victims' 
assistance process in order to identify additional steps that 
we could take to facilitate this important mission.
    I would note that Congress recently enacted a bipartisan 
omnibus appropriations bill that establishes a new United 
States victim of State-sponsored terrorism fund. This fund may 
be authorized up to $20 million to certain U.S. victims in the 
aftermath of a terrorist attack. Again, we very much appreciate 
the opportunity to hear from Ms. Singer, Mr. Schwartz, and Mr. 
Roth on your experiences with this process. I will also look 
forward to discussing with all of our witnesses how we can 
address existing challenges to assisting U.S. victims of 
terrorism abroad and their families.
    I thank you, Mr. Chairman, and I yield back the balance of 
my time.
    Mr. DeSantis. I thank the gentleman.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement. We will 
now recognize our panel of witnesses.
    I am pleased to welcome Mr. Brad Wiegmann, Deputy Assistant 
Attorney General, National Security Division, U.S. Department 
of Justice; Ms. Sarri Singer, founder and director of Strength 
to Strength, and a victim of terrorism herself; Mr. Peter 
Schwartz, uncle to a victim of terrorism; and Mr. Arnold Roth, 
father to a victim of terrorism. Welcome to you, all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please rise and raise your right hands.
    Do you solemnly swear that the testimony that you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you God?
    Mr. DeSantis. All witnesses answer in the affirmative; 
thank you and please be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes, or if I talk with some of the 
witnesses, please do the best you can. Your entire written 
statement will be made part of the record.
    Mr. Wiegmann, you are recognized for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF BRAD WIEGMANN

    Mr. Wiegmann. Good afternoon, Chairman DeSantis, Ranking 
Member Lynch, distinguished members of the committee. I'm very 
pleased to be here today to talk about the Department of 
Justice's efforts to seek justice for U.S. victims of 
Palestinian terrorism in Israel. Protecting Americans from acts 
of terrorism, and ensuring that those who commit such acts are 
brought to justice, is the Department's highest priority. DOJ's 
agents, analysts and prosecutors use every available resource 
and appropriate tool to disrupt the terrorist plots and to 
investigate and prosecute terrorists. As we perform our 
mission, the American victims of terrorism are always foremost 
in our thoughts. Our hearts are with them and their families, 
relatives, and friends who have endured so much pain and 
suffering because of horrific attacks. We will leave no stone 
unturned in our efforts to ensure that those responsible for 
those attacks are held accountable, no matter where the attack 
occurred and no matter how long it takes.
    This past year, we brought charges in scores of 
international terrorism-related cases reflecting the serious 
and diverse terrorist threats that we face today from Al Qaeda 
and its affiliates, to ISIL, to home-grown violent extremists, 
who are inspired by such groups. For more than 10 years, we've 
had an Office of Justice for Victims of Overseas Terrorism. The 
mission of OVT is to ensure that where Americans are killed or 
injured in terrorist attacks overseas, investigation and 
prosecution remain a high priority, and the rights of victims 
and their families are honored and respected.
    OVT's operational assistance is focused principally on 
supporting American victims when cases are tried in foreign 
criminal justice systems, as is ordinarily the case in overseas 
attacks. Its work complements that of FBI's office for victim 
assistance, and the victim witness coordinators and U.S. 
Attorney's Offices, which have a more domestic focus. There are 
a number of different services OVT provides to victims, and I 
would be happy to talk about those in greater detail today. Now 
I know this committee is particularly interested in how we 
support American victims of Palestinian terrorism in Israel. 
Terrorist attacks, unfortunately, are all too common in Israel. 
Many Americans have been injured or killed in these attacks, 
along with Israeli nationals and others. Seeking to ensure that 
justice is done in each and every case in which an American is 
harmed is our top priority, whether the attacks occurred in the 
United States, in Israel, or anywhere else around the world. 
The nationality of the terrorists or the group with which he or 
she may be affiliated is not relevant to our interest in the 
case.
    Over the years, the Department of Justice has brought some 
cases against individuals affiliated with Palestinian terrorist 
groups. For example, we have prosecuted more than a dozen 
individuals associated with Hamas or Palestinian Islamic jihad 
for financing or otherwise facilitating terrorist activities or 
committing related offenses. We have also prosecuted Palestine 
terrorists who engaged in attacks that killed or injured 
Americans outside of Israel. Now to be sure, these cases do not 
involve any of the recent attacks within Israel, but they do 
evidence the Department's commitment to investigating and 
prosecuting terrorist activities by Palestinian terror groups 
where possible.
    The Department of Justice also has a number of open 
investigations regarding overseas terrorist attacks committed 
in Israel and in other countries that have harmed Americans.
    While I cannot discuss these investigations today or the 
facts of specific cases, it's important to note that the 
absence of public charges associated with a particular overseas 
attack does not mean that there are no charges or that no such 
charges will be brought.
    A successful U.S. prosecution can occur and has occurred 
many years after an attack, and after an individual is released 
from a foreign prison. Of course, a U.S. prosecution is not the 
only way a terrorist can be brought to justice, nor is it the 
only means by which to protect our national security. Often, a 
foreign prosecution is the best or only available option. And 
if so, we work with foreign authorities to support such 
prosecutions as necessary.
    Israeli authorities have successfully investigated and 
prosecuted many individuals in connection with terrorist 
attacks that have harmed Americans. Some of these terrorists 
have been sentenced to multiple life sentences or extensive 
jail time in Israeli prisons. Sometimes Israeli authorities 
have pursued a military response, rather than, or in addition 
to, a prosecution, and the terrorists have been killed. It is 
to be expected that Israel will ordinarily take the lead in 
investigating and prosecuting terrorist attacks against its 
nationals that occur on its territory, just as we do here in 
the United States and as many other countries do.
    The Department of Justice has provided support and 
assistance to scores of Americans victimized by terrorism in 
Israel in cases investigated and prosecuted by Israeli 
authorities. OVT provides information to victims about their 
rights in the Israeli criminal and military justice systems and 
the charges, hearing dates, verdicts, and sentences in such 
cases. We have provided financial and logistical support for 
victims living in the United States to travel to Israel to 
attend court proceedings.
    Our staff has also accompanied victims to court in Israel 
to assist them in their participation. We also coordinate a 
program that has enabled U.S. victims of attacks in Israeli to 
obtain reimbursement for out-of-pocket expenses associated with 
the attacks.
    Now the fact that foreign governments most often prosecute 
terrorist activities that occur in their countries does not 
mean the Department of Justice does not also pursue such cases. 
We do and we have successfully done so many times. But there 
are often significant impediments to bringing prosecutions in 
the United States for attacks that occur overseas. These 
obstacles include obtaining necessary cooperation from foreign 
governments, gathering evidence overseas that would be 
admissible in U.S. court, and apprehending and extraditing 
defendants. I would be happy to discuss some of these 
challenges that we may confront in these cases today.
    In closing, I can certainly understand the frustration of 
some of the families that the Department of Justice has not 
prosecuted more cases involving terrorist attacks against 
Americans in Israel. And we certainly share the concern about 
Israel's recent releases of the prisoners who harmed Americans, 
a step the United States urged Israel not to take. The 
Department is committed to making every effort to bring 
appropriate charges against those released prisoners who are 
responsible for attacks in Israel that included American 
victims. So I'll stop there. And I look forward to your 
questions.
    Mr. DeSantis. I thank the gentleman.
    The chair now recognizes Ms. Singer. You're up for 5 
minutes.

                   STATEMENT OF SARRI SINGER

    Ms. Singer. Thank you. Chairman DeSantis, Ranking Member 
Lynch, and distinguished members of the committee, thank you 
for inviting me to testify today and share with you my personal 
story, which is a story of thousands of Americans, people 
living in Israel and around the globe who have felt the brutal 
impact of Islamic terrorism.
    My name is Sarri Singer. I'm the founder and director of 
Strength to Strength, and I'm the daughter of New Jersey State 
Senator, Robert Singer. I was taught that the little things in 
life make the biggest difference, but I never understood the 
impact of the most minute details; a missed bus, seconds shaved 
off a marathon, a seat change, even a blink of an eye.
    I sit before you today as a survivor of a terrorist attack 
because of a series of split-second decisions that left 16 
people dead and many others injured, including myself. When a 
terrorist attack occurs, the smallest details determine the 
outcome of everyone within range, and it's those stated moments 
that haunt victims for the rest of their lives.
    September 11, 2001 was a turning point for me. I worked 
near the World Trade Center, but overslept that morning. While 
my colleagues are running for their lives, I was uptown 
watching the Towers burn and the murder of thousands of 
Americans on television. Within 3 months, I quit my job and 
moved to Israel and volunteered with organizations assisting 
victims of terrorism.
    My personal 9/11 came on June 11, 2003, the day I boarded 
bus number 14 in Jerusalem, and barely escaped with my life. It 
is now 12-1/2 years since that horrific attack, and the 
memories are still fresh in my mind. When I close my eyes, I am 
brought back to that day and shudder as my mind wanders into 
the alternate endings, each scenario increasingly terrifying. I 
was meeting a friend for dinner and boarded the bus. I chose an 
empty seat by the window. I always preferred the aisle seat, 
but that day I didn't and I lived. The woman in the aisle seat 
next to me did not.
    I remember the sounds of crushing metals and the shock 
waves as the explosion tore through the bus. I remember 
shutting my eyes, an instinct which saved my sight. I remember 
the moment of silence that followed the blast, a silence so 
frightening, the silence of those who were dead in every seat 
around me. I screamed. I screamed so loud that a stranger who 
had heard the blast from three blocks away ran toward the 
mangled burning bus and pulled me out.
    I will never forget the old woman who held me as I was 
burned, bleeding, and frightened. I will never forget the 
kindness and love that was shown to me by those I had known my 
entire life and by those whom I had never met.
    My injuries were extensive, shrapnel went through my left 
shoulder, breaking my clavicle bone. Both my eardrums were 
blown from the impact of the blast. My hair was burned, my face 
was bruised, my legs badly cut, and I have shrapnel in my mouth 
that is inoperable that will remain with me the rest of my 
life. Days after the attack, I was told that the terrorist was 
two people away from me, and all those seated and standing 
around me were killed on impact. A busload of innocent 
civilians boarded the bus that day, and a suicide bomber 
injured over 100 of us and murdered 16 innocent people, 
including American citizen Alan Beer, originally from 
Cleveland, Ohio.
    An attack happens in an instant, but the impact lasts a 
lifetime. I established the organization Strength to Strength 
to create a support environment for victims, both survivors and 
bereaved family members. We are part of a global network 
bringing victims of terrorism together, working with 
organizations in various countries coming from different 
backgrounds and religions.
    It's difficult to find anything positive or any semblance 
of meaning in an act of terror. The act of maiming or murdering 
another person to support a political or religious agenda is 
not one that I will ever understand. We must do everything to 
make sure no more lives are ruined by terror, and we must 
remember that victims need support from their family, friends, 
community, and especially their government.
    While the physical injures I endured were difficult, 
nothing compares to long-term psychological impact. Finding 
justice is something that is vital in dealing with the long-
term impact of what I and others have been through. In 2004, 
Congress passed the Koby Mandell Act, which funded a special 
office within the U.S. Department of Justice to advocate on 
behalf of American victims of terrorism and tasked them with 
not only helping families with various expenses resulting from 
terrorist attacks, but to actively investigate those crimes and 
help bring the perpetrators to justice.
    While the office has been responsive in helping families 
with the former, and the civil servants who work at the Office 
of Justice for Victims of Overseas Terrorism undoubtedly have 
good intentions, Congress' hope that the Department of Justice 
would take an active role in investigating, extraditing, and 
prosecuting terrorists who kill Americans overseas has come up 
against a harsh reality.
    Since Congress passed the Koby Mandell Act, the only 
serious counterterrorism effort I see relating to my terrorist 
attack and dozens like it has come from two private civil suits 
I joined against Arab Bank of Jordan, and National Westminster 
Bank in Britain. The case brought against Arab Bank led 
directly to a regulatory investigation by the U.S. Treasury 
Department of Arab Bank's New York branch, and culminated in a 
jury verdict in 2014, finding the bank liable for 24 Hamas 
terrorist attacks, including the terrorist attack that injured 
me.
    The case against Nat West Bank is still pending, but it 
already has resulted in the bank closing the accounts of a U.S. 
specially designated global terrorist, Interpal, whose accounts 
remain active for years, despite U.S. diplomatic efforts.
    I don't expect perfect justice, and I fully realize that 
the Federal Government cannot bring every terrorist to justice, 
but the government's track records in extraditing or even 
seeking extradition of Palestinian terrorists who have murdered 
American citizens is nonexistent.
    One example is Ahmed Mustafa Saleh Hamed, part of a Hamas 
cell that murdered American Howard Goldstein in June 2003, who 
was sentenced to seven life sentences by Israel. He was 
released from the prisoner--from prison as part of the Gilad 
Shalit prisoner exchange. He has since been linked by Israeli 
authorities to a fatal June 29, 2015, attack in Israel.
    I love my country. America has always been a great country 
that has created a safe haven for citizens and refugees. I grew 
up believing that my country would be there for me and protect 
me no matter where I was in the world. These last years have 
left me feeling let down, and I want to believe, again, the way 
I always did that my country is protecting me and not the 
people who sent a teenager, strapped up with a bomb to blow me 
up.
    Please, for all of us who have had our lives disrupted, 
restore our faith that our government is on our side. In 
closing, thank you, Chairman DeSantis, for making this hearing 
a priority and being a voice for so many American victims of 
Palestinian terrorism. Thank you for standing up for us and 
making sure that we know we're not alone and that we're not 
forgotten. Thank you.
    [Prepared statement of Ms. Singer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. DeSantis. Thank you.
    Mr. Schwartz, you are now recognized for 5 minutes.


                  STATEMENT OF PETER SCHWARTZ

    Mr. Schwartz. Thank you, Chairman DeSantis, Ranking Member 
Lynch, and members of the subcommittee, for holding this 
hearing and for allowing me to testify.
    My name is Peter Schwartz, and I am the proud uncle of Ezra 
Schwartz of Sharon, Massachusetts. Ezra was a sweet and fun-
loving kid. He was a great skier and baseball player and an 
avid football fan. He had a sharp mind, was a strong chess 
player and enjoyed reading. He had a special talent for 
engaging those on the margins or in need. The nervous young 
camper, the mediocre athlete at the baseball tryout, the 
elderly woman carrying groceries. Ezra graduated high school 
and had been accepted to the business program at Rutgers, which 
he was excited to attend this fall. But he decided to take a 
gap year in Israel in a program that mixed learning with 
community service.
    He was popular and happy, enjoying his year, doing good 
work, and looking forward to college. On November 19, 2015, 
just over 2 months ago, Ezra and some friends went to do some 
volunteer work on a memorial park that ironically honored the 
memories of three boys who were kidnapped and killed by a 
Palestinian terrorist the year before. One of whom, Naftali 
Frankel, was an American citizen. The van that Ezra and his 
friends were in was caught in rush-hour traffic at the Gush 
Etzion Junction just south of Jerusalem. And at some point, 
Ezra put his head down against the window and went to sleep.
    Muhammed Abd Al-Basset Kharoub, a 21-year-old Palestinian 
from a small West Bank village, spent at least two years 
planning and preparing to kill as many Jews as possible. With 
the assistance of his brothers, and at least one friend, 
Kharoub purchased two guns and many rounds of ammunition for 
over $10,000. Kharoub chose his own birthday, November 19th, to 
go searching for a place with enough Jews to kill.
    When he arrived at the Gush Etzion traffic jam in which 
Ezra and his friends were stuck, he took out his gun and 
started spraying the waiting cars with bullets, killing three 
people, including Ezra, before being apprehended. Ezra was shot 
in the head, and in an instant, all of the beautiful things 
that he was and everything that he would ever become was gone 
forever. It is simply not possible to describe the magnitude of 
this loss and the impact it has had on our family without 
sounding cliche, but it is excruciating and profound and 
overwhelming and visceral. His absence assaults you from every 
direction: From his sweet face staring at you from the family 
photos on the wall, from his name on the label of the skiing 
and sporting equipment sitting unused in the closet, from his 
adorable first grade artwork, from the empty seat at the table, 
from the birthday text that never arrives, and even from the 
happy milestones of his friends and peers, whose future 
graduations and weddings will be tinged with a little bit of 
sadness knowing that Ezra won't be there to share them, and 
won't have similar milestones of his own, but will be forever 
frozen at 18 years old. All of us in the family now have an 
awful highlight reel playing over and over in our heads.
    For me, it includes getting the news from my brother, 
telling my son that his cousin is dead, telling my parents that 
their grandson is dead, seeing Ezra's siblings and parents 
around his coffin, and seeing my brother, who I love so dearly 
and unconditionally, in unimaginable pain that I can never 
comfort. And then you remember that all this terrible pain and 
loss is not the result of some tragic accident or unfortunate 
illness, but rather, it was a deliberate and premeditated act 
by someone who dreamed of causing this suffering.
    Our family has tried to focus on Ezra's wonderful but all-
too brief life, and has a void awaiting the surrounding 
politics, but there's nothing political or controversial about 
saying that the deliberate killing of innocent civilians for 
ideological, political, or religious reason is abhorrent and 
inhuman, and it is just as wrong in Israel or in Gush Etzion, 
as it is in Paris or Mali or London or lower Manhattan. There 
is no context or explanation that makes Ezra's murder or 
Palestine terrorism any bit less repugnant than any other 
terrorism in any other place, and there is no reason that it 
should warrant any less condemnation or reaction from every 
civilized citizen or country on earth. In fact, the need for a 
strong U.S. response to terrorism in Israel is even greater, 
considering how many Americans live, study, and travel there, 
that it is such a frequent, and now literally daily target of 
terrorists, and that it is our strongest ally in the Middle 
East, and the only one with which we share fundamental values 
like religious tolerance and democracy.
    Since Ezra's death, the U.S. Government has been extremely 
supportive of our family. Condolence calls from President Obama 
and Secretary of State Kerry were deeply meaningful and 
appreciated and representatives of OVT, ITVERP, and the FBI 
have been in touch and sympathetic.
    That said, we are not aware of what, if any, U.S. actions 
have been undertaken to investigate this case, and we still 
have many unanswered questions about the attack that claimed 
Ezra's life and what role our government can play in answering 
them. For example, how did a 21-year-old Palestinian from a 
small West Bank village obtain more than $10,000 to purchase 
firearms and ammunition? Did Kharoub receive funding from 
outside groups, such as Hamas or Islamic jihad? Will others, 
including Kharoub'sbrothers, one of whom supplied him with the 
car he used in the attack, be charged as accomplices in the 
case?
    It is our hope that FBI and the legal team at OVT will take 
an active interest in this case and work with their Israeli 
counterparts to answer these questions and ensure that Mr. 
Kharoub, his accomplices, and other terrorists who harm 
Americans abroad face justice, and when convicted, remain 
behind bars.
    Thank you for this opportunity and for all that you do to 
support and protect U.S. citizens and their families in Israel 
and around the world.
    [Prepared statement of Mr. Schwartz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. DeSantis. Thank you, Mr. Schwartz.
    Mr. Roth, you are now recognized for 5 minutes.


                    STATEMENT OF ARNOLD ROTH

    Mr. Roth. Chairman DeSantis, Ranking Member Lynch, 
distinguished members of the committee, and staff of the 
committee, I admire the ability you have to call an event like 
this and to project the message that things can be done. It is 
the antithesis of the feelings that people like me, people who 
are the parents of a child who has been murdered, or the 
partner of a loved one whose life has been stolen from us 
filled, because nothing is more disempowering and shattering 
and silencing than being the survivor of an act of terrorism 
directed at people who you love. I was reminded at just how 
that power works driving here. I am not a frequent visitor to 
Washington, but I was in a cab that went through the Mall, and 
we passed a memorial. It's a memorial, as it happens, to World 
War II, but it makes material and concrete the reality that 
behind all of those numbers and those ciphers and those 
tombstones, they were lives and people. It's a sense that has 
been cheated from us.
    If terrorism has any overriding goal, it is to 
depersonalize and to anonymize, and to turn into statistics 
both the victims and the people who lived with and loved those 
victims.
    And I appreciate the opportunity that this hearing presents 
to push back and to say what is on the minds of victims like 
me. There are thousands of us. We seek, by every possible 
means, to do something that is so difficult to explain that I 
can only throw the words at you, to reassert the humanity of 
the people whose lives have been stolen by the cruel 
terrorists. In this case, my daughter, Malki. I'm not going to 
spend any time here telling you what a wonderful life she 
lived, and what a beautiful person she was, and how much good 
she brought into the world and how empty and silent is the void 
that she left behind her.
    But I am going to say that having stolen that life, the 
terrorists have left us, the families and the loved ones, no 
choice but to do everything we possibly can to associate the 
memory of that wonderful life with things that are good. And 
I'm struck by the reality, as I look around the other victims, 
other victims' families in Israel where I live, how 
energetically they pursue the doing of good things, perhaps the 
erection of a shelf for books, perhaps a shelter at a bus stop, 
perhaps a foundation like the one that my wife and I set up 
that helps people who have a disabled child.
    You see actions like this are going on all the time. They 
are not intended to draw attention to the people that are 
living them; they are intended to draw attention to the lives 
that are being so unfairly stolen. And with the image of Malki, 
my daughter, who was fifteen, right before my eyes, as I say 
these words to you, I realize that I want you to know that I am 
never going to be, again, able to talk about terrorism in the 
way perhaps that others can. I see things; my wife sees things; 
my children see things that somehow the people who report about 
terrorism and the people who prosecute the terrorists probably 
never see. There are resonances and absences and failures to do 
things that choke us.
    I don't remember thinking those thoughts until I had to 
wake up one morning and see my daughter's slippers next to the 
bed that she was never going to be sleeping in again.
    When I put together my written submission, which I hope 
will be read, I felt that I needed to speak about practical 
things that this committee could do. And they came down to 
wanting you to be aware of the incitement and the enablement, 
two key words which may be not self-evident, the incitement 
that goes on day after day to anyone who has eyes and ears, by 
the Palestine Arab society with which we are striving to live 
in peace, and which, to a great extent, is folded into the 
society in which I and my family live.
    The incitement that comes from the very highest levels of 
that society, right down to ordinary Tweets emanating from 
people who live in that society. Their hatred, the urging on to 
more and bigger and better acts of terrorism, is simply 
unbearable. And as long as it goes on, and it does go on, we're 
wasting our time and our prayers in hoping that these problems 
will go away, they will not go away.
    Likewise, the enablement. Enablement has to do with money, 
and money is where Washington comes into the picture. When a 
person is sentenced to prison, and then comes out after, 
perhaps, many years, life is pretty difficult. You have 
problems re-emerging into society and you probably don't have 
any money. It's hard for me to convey to you how untrue that is 
in the case of thousands of Palestinian Arab-convicted 
terrorists. Of course, I'm thinking about the people, the gang 
who were involved in the murder of my daughter.
    And I'm also thinking, in particular, of the engineer of 
the massacre, who was a young woman, who has been mentioned 
here in the chairman's thoughtful introductory words.
    These people have come out with more money than they have 
ever had in their lives. They have come out with a more exalted 
position in society than they ever dreamed of. If any of us 
imagine that the process that produces those results is 
conducive to bringing an end to this death cult, this 
engagement with murder has a redemptive act, then think more 
carefully.
    In relation to the work that's been done by the DOJ, I've 
made the point several times in my written remarks that there 
has been unfailing courtesy, responsiveness, and attention, but 
very little in the way of results. I could make the statement 
stronger, but I choose not to.
    This is not a human material problem; this is not a 
goodwill problem, but there is a problem. It's clear that 
there's a problem. It's not clear where the problem is coming 
from. If this committee does anything, and I know that there is 
a desire to do something, let it be to focus on where the 
problem is.
    Should the OVT or the DOJ address these issues of 
incitement and enablement and the particularly bizarre way in 
which the word ``terrorism'' has been removed from the lexicon 
of many of the people engaged in looking at terrorism, trying 
to stop terrorism. Euphemisms are being used as if they were 
machine guns, but they are not machine guns, but they do make 
people lose focus. In some ways, they are the real enemy here.
    Terror is now a legitimate career option for hundreds of 
thousands of people living on the other side of the boundary 
from where I live. Unless we engage with that issue and 
recognize where it's brought us, not much is going to happen. I 
don't know why the kingdom of Jordan continues to appear at the 
very top of the State Department's survey on terrorism as 
America's close ally. I don't know why that is. I don't know 
why people who haven't lost a child don't see how far away, 
which is not very far away, everybody here, in my country, in 
Australia, in New Zealand, wherever, are from experiencing the 
kind of unthinkable loss that has turned my family's life 
upside down.
    I am sorry that I have gone on beyond the time. I want to 
mention very briefly something that President Obama said last 
week on the day that this meeting was supposed to take place, 
on the 27th of January. He did something that was startling to 
me. He quoted a Hebrew expression, which is, of course, is 
taken from the Bible. In the course of speaking at the Israeli 
Embassy on Holocaust Memorial Day, he used the expression, 
Tzedek, Tzedek, Tirdorf. Three words, Tzedek, Tzedek, Tirdorf. 
``Tzedek'' is the Hebrew word for justice. It's also the Hebrew 
word for righteousness. And it's repeated twice in that 
sentence in Deuteronomy 16.
    Tzedek, justice, cannot be done in a vacuum. Justice 
requires it to be done in a righteous fashion, doing it right 
is how we ensure that all of us, not just the victims, but all 
of us can continue to live and exist as coherent and 
constructive communities and societies.
    I can't explain why the OVT's record is what it is, but I 
do urge everyone, including the key people inside the OVT, to 
look carefully, look carefully into their hearts to see whether 
justice is being done and whether it's justice, justice, as the 
biblical phrase says, justice, justice, thou shall pursue. 
Thank you very much.
    [Prepared statement of Mr. Roth follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Mr. DeSantis. Well, I thank the gentleman and I think the 
witness statements were excellent. I really appreciate you guys 
coming here, and I think that anybody watching this, you know, 
I think it was very, very powerful, and we appreciate it.
    Mr. Wiegmann, the committee has counted that since '93, at 
least 64 Americans have been killed, as well as two unborn 
children, and 91 have been wounded by terrorists in Israel in 
disputed territories.
    How many terrorists who have killed or wounded Americans in 
Israel or disputed territories has the United States indicted, 
extradited, or prosecuted during this time period?
    Mr. Wiegmann. I think the answer is--is none.
    Mr. DeSantis. Okay. How many terrorists who have killed or 
wounded Americans anywhere else overseas has the United States 
indicted, extradited, or prosecuted?
    Mr. Wiegmann. I don't have an exact figure for you.
    Mr. DeSantis. But it would be a decent size number, though, 
correct?
    Mr. Wiegmann. It would be a significant number, yes.
    Mr. DeSantis. Okay. Does the DOJ plan to prosecute any of 
the terrorism cases committed by Palestinian terrorism and 
Israel in the disputed territories?
    Mr. Wiegmann. So we have a number of open investigations. I 
can't comment further on the status of the investigations.
    Mr. DeSantis. Do you know how many, though?
    Mr. Wiegmann. I can't give you that number.
    Mr. DeSantis. Why not?
    Mr. Wiegmann. I don't have the number, and I don't think we 
want to comment exactly, because the more we say about the 
number of investigations we have, the more we tell the bad guys 
who we are trying to get.
    Mr. DeSantis. I get the ongoing investigation. I think we 
would like a sense of whether this is a substantial effort or 
not. And so, you know, maybe you don't give us an exact number, 
but we want to know that progress is being made.
    In your opening statement, you said that these 
prosecutions, when Americans are killed by terrorists overseas, 
including in Israel, that that was the highest priority, and 
that there should be no stone left unturned. And I understand 
when you're talking about foreign jurisdictions, and you 
alluded to some of the issues that arise, and I think that 
point is well taken. But when it's zero for 64, I think you see 
some people, who have been affected negatively, wonder, you 
know, what exactly is the Department doing within this 
particular aspect of terrorism that occurs in Israel?
    And let me ask you, particularly: Mr. Roth alluded to 
engineer of the terrorist attack that killed his daughter. This 
is an individual who really is, since being released in a 
prisoner exchange, has been open and notorious, is on TV with 
Hamas. Is that something that the Department is monitoring? And 
is there any plans to try to seek justice in that case?
    Mr. Wiegmann. So let me address that. I think the Tamimi 
case is the case you're referring to. And she, along with two 
others, I think, were prosecuted originally by the Israelis. As 
I said in my opening statement, most of the cases that occur in 
Israel are prosecuted in the Israeli system. And so she was 
sentenced to a long prison term. She was then released in 2011 
in conjunction with the Gilad Shalit prisoner exchange. This is 
something that we opposed. We advised the Israeli Government 
that we opposed this release, but they did that anyway. They 
are a sovereign government. We couldn't block that.
    Since that time, we have made clear that we intend to 
pursue any available charge that we can, either in this case 
and all the other cases involving released prisoners. That was 
really a kind of game changer for us, the prisoner release, and 
we are really concerned about all of those folks that have 
American victims on their hands----
    Mr. DeSantis. I think so.
    Mr. Wiegmann. --so absolutely we are pursuing all those 
cases, including that one.
    Mr. DeSantis. And I appreciate that. Senator Inhofe, in 
2012, wrote and requested the status, and basically, we were in 
the same holding pattern. So I appreciate those words. But I 
think, as Mr. Roth said, when OVT was created, the idea was 
you're going to help the victims and then hopefully, facilitate 
within the DOJ that these prosecutions are happening, and they 
are not.
    Now, it's- been alleged that the reason that DOJ does not 
prosecute the Palestinian terrorists who harm Americans in 
Israel, the disputed territories, is that the Department of 
Justice is concerned that such prosecutions will harm efforts 
to promote the Israeli-Palestinian peace process, or that it 
will actually harm the Palestinian Authority.
    So let me ask you straight up, is that a consideration the 
Department of Justice?
    Mr. Wiegmann. I can assure that is obsoletely not the case.
    Mr. DeSantis. And has the State Department ever made 
arguments to the Department of Justice to handle some of the 
Palestinian terrorism cases differently than you may normally 
handle, say, a terrorism case in Asia?
    Mr. Wiegmann. Absolutely not. The State Department has 
nothing to say about cases that we bring, whether in 
Palestinian territories related to these cases or not. So it 
absolutely makes zero difference to us whether the terrorist 
attack occurred in Israel, whether it's a Palestinian terrorist 
group, whether it's ISIL, Al Qaeda, they are all the same to 
us. We want to protect Americans regardless of who they are 
victimized by.
    Mr. DeSantis. So you mentioned the 2011 prisoner releases 
that included terrorists who harmed Americans. Now, when that 
was undertaken, you said the administration opposed it. Did the 
State Department work with Israel to maybe seek extradition of 
any of the people would were being released against our wishes?
    Mr. Wiegmann. So, again, I can't comment on any particular 
investigation. But what I can say is that since that prisoner 
release, we have kind of redoubled our efforts on those 
investigations. We are working really hard with the Israelis. 
We have gotten increased cooperation from the Israeli 
Government since those releases. And to the extent that we can 
bring charges in any of those cases, we intend to do so.
    Again, I would caution the committee not to assume that 
because, as I said in my opening statement, that we don't have 
any public charges doesn't necessarily----
    Mr. DeSantis. No, I don't think we do assume that. I just 
think it has been a long--you know, this has been something 
that's been going on for a long time. And I think there's a lot 
of concern, understandable concern, about the lack of results. 
And so that is really what we are focused on is the results.
    Now, some have said that if you have a situation where a 
terrorist who kills Americans in Israel is prosecuted by the 
Israelis, then they are later released in a prisoner exchange 
or release, that somehow if we were to prosecute them here, 
that would trigger double jeopardy. Is that the Department's 
position?
    Mr. Wiegmann. Absolutely not. We have prosecuted people who 
have been released from prison before. Sometimes it takes us a 
while. One prominent case is an older case, actually a case 
involving a Palestinian terrorist who hijacked an airliner in 
Pakistan. He spent, I think, 8 to 10 years in a Pakistani 
prison. Then he was released, made his way to another country, 
and was, I think, more, 10, 12, 15 years later that we were 
able finally to apprehend the person, prosecuted him in 2004, 
and he's got a 60-year sentence today.
    So we have prosecuted people who have been released from 
prison before, and certainly, nothing in the Israeli prison 
release would be any different. We fully intend to pursue 
charges in any of those cases if we can.
    Mr. DeSantis. Let me just conclude by asking, and I 
realize, I mean, you are here representing the Department, the 
Koby Mandell and the OVT. This was all over 10 years ago. We've 
had different administrations, different parties, we've had 
Congress, different parties, and so it's been a-- it's not that 
there's one person to blame, but when you see that zero cases 
have been brought, and you see the victims of terrorism, their 
families seeking justice, do you understand the frustration 
without seeing any tangible results, even understanding that 
some of these cases are very difficult?
    Mr. Wiegmann. I certainly understand the impatience and 
frustrations. The only thing I can say are the reasons are, in 
some of those 64 cases they talked about, there were Israeli 
prosecutions, and Israel is a very capable and effective and 
aggressive prosecution regime, so a lot of those cases, 
prosecutions were brought by the Israelis, and that's the same 
as we would do here. I mean, we have had foreign nationals 
injured in terrorist attacks here, whether it's 9/11 attacks, 
or the Boston Marathon bombing. There were foreign nationals in 
both of those attacks who were killed and injured. Those 
attacks are going to be prosecuted in the United States.
    The foreign governments, we try to work with them, give 
them information and so forth about the case, but the same is 
true in Israel. The Paris bombing was prosecuted, or will be 
pursued, investigated by the French, because it is on their 
territory. There was an American killed in that attack. So I 
totally get it. I understand the frustration and impatience of 
the victims, but, in general, those terrorism cases around the 
world are prosecuted where they occur. That doesn't mean that 
we don't try to bring extraterritorial cases when we can, but 
there are some really tough issues in bringing these cases. As 
I mentioned in my opening, we have to have the cooperation----
    Mr. DeSantis. I appreciate all that, but, you know, the 
tough issues, you have to confront this. When you say leave no 
stone unturned, that means you have to deal with them head on. 
So I appreciate you being here. I've gone over, and so let me 
recognize the ranking member, Mr. Lynch.
    Mr. Lynch. I want to thank the witnesses for your 
testimony. Indeed, heartbreaking and very, very powerful. I 
want to go through, Mr. Wiegmann, the procedure that has to be 
followed. I also serve as the top Democrat on the Task Force on 
Terrorism Financing, so I spent a lot of time in the Middle 
East, in Pakistan, a lot of time in Israel, a fair amount of 
time. I just came back last week from Lebanon, the Syrian 
border, Turkey, Jordan. And part of our efforts there are to, 
on the terrorist financing pieces, to take the power away from 
these terrorist groups to try to deny them the resources that 
they use to perpetrate these terrorist acts, and to deny them 
access to the legitimate financial system.
    I'm also very familiar with the previous terrorist attacks, 
Khobar Towers, Nairobi, Dara Salaam, the multiple attacks in 
Karachi, Pakistan, and Islamabad, obviously several attacks in 
Beirut.
    Mr. Wiegmann, if there is an attack in a foreign country on 
U.S. citizens--I think you've said this before--in the first 
instance, the prosecution is solely--let's back up a little 
bit. In all of those cases that I just mentioned, to my 
knowledge, it was the FBI that goes in first. Is that correct? 
Are they the lead agency for the United States?
    Mr. Wiegmann. For the United States they are, but obviously 
if it's an attack overseas, the real leader is the government 
of the place----
    Mr. Lynch. No, no, I realize that.
    Mr. Wiegmann. The FBI, yes.
    Mr. Lynch. The lead agency for us?
    Mr. Wiegmann. Yes, absolutely.
    Mr. Lynch. And in the first instance, our role in terms of 
assisting any prosecution by the host country, and as you said, 
the Israelis handle it. The Lebanese handle it. The Kenyans 
handle it. It is an investigation that is by the host country, 
and we're allowed to assist. Is that how it normally goes?
    Mr. Wiegmann. Yes. In many cases, we do provide assistance 
if we have information that is relevant to the attack or we can 
provide, we sometimes are helping with the victims actually 
provide information what they have on the attacks.
    So, yes, there's ways that we can assist, and we do. 
Sometimes it's just helping them in their own investigative 
techniques, so there's a lot of cases in which we provide 
support. The other more capable governments, it's less likely 
that we would provide assistance, because they're already quite 
capable on their own. So it really depends on the country.
    Mr. Lynch. Okay. Are there any opportunities for us to have 
shared prosecution agreements or something like that, or a 
treaty in place where we can actually, you know, get in 
initially with the investigation and sort of expedite and 
enhance the prosecutions in foreign countries? Do we have 
anything like that?
    Mr. Wiegmann. It really depends on the country and the 
facts of the case. There's some cases, let's say an African 
country. You mentioned Kenya and Uganda, I know. There are 
cases where they really need our help. They're not used to 
doing complex counterterrorism classifications. We send FBI 
teams in very early, and prosecutors as well, to help 
investigate the case, and we're there at a very early stage. In 
contrast in another case, let's say it's an attack in France, 
they already have a very sophisticated cadre of investigators 
and prosecutors. We typically would provide information, but, 
say, electronic information on accounts that terrorists may 
have been using or things like that, and we provide assistance, 
but it's not the same level of support that we provide in a 
less developed country.
    Mr. Lynch. How--and I know this is probably country-
specific, but what is the experience that you've had in terms 
of getting cooperation from some of the host countries where an 
attack has occurred involving a U.S. citizen?
    Mr. Wiegmann. So, again, it's really all over the map. Some 
countries really welcome our cooperation and ask for it. Other 
countries are not as cooperative and won't give us information, 
won't allow us in on the ground, won't allow us to go in and 
interview witnesses or do anything like that, so it really runs 
the gamut.
    Mr. Lynch. Mr. Schwartz' testimony highlights the balance 
of understanding the sensitive nature of investigations and 
intelligence gathering on the one hand, but also on the other, 
the victims and families deserve answers to the questions, so 
you can see how this is tremendously frustrating to families in 
this case, and also all those who are similarly situated, and 
there are hundreds. I'd like to get your comment on it, 
particularly given that your division, the National Security 
Division, not only oversees OVT, but also is more generally 
responsible for enhancing law enforcement and intelligence 
efforts to combat international terrorism. How do we divide 
those priorities in terms of trying to inform the families, but 
also dealing with maybe sensitive issues with the host 
countries?
    Mr. Wiegmann. So we have an obligation, and it's our 
mission anyway to give the families as much information as 
possible about the status of the investigations to the extent 
we can do so without interfering with or impeding those 
investigations. So that's one of the main functions of our 
office for victims, is to keep the victims apprised of the 
status of investigations. We have lots of meetings with 
victims, their families, to tell them what's going on. There 
are limits sometimes as to how much we can say, but we say a 
lot more than we can say publicly. We can develop confidential 
relationships with the victims and can share quite a bit of 
information with them.
    We try to obtain information if it's a case that's being 
prosecuted overseas from the foreign government in a way the 
victim might not be able to, and share that information to the 
extent that we can as well. The victims actually have statutory 
rights to be informed to the extent possible, and we try to 
maximize that to the extent that we can. There are some limits 
to what we can say, because we don't want to jeopardize the 
case in any particular case, but we do try to share as much as 
we can.
    Mr. Lynch. Is there anything that Congress can do? Do you 
feel that you're inhibited, in any way, by statutory provisions 
that we have put in place that could be mitigated in order to 
help you be more cooperative with victims' families?
    Mr. Wiegmann. I don't think so. I feel like our office 
does, we can always use more resources. We have a small office, 
so there's always more that could be done in theory, but I 
don't think there are any legal prohibitions on our 
relationship with the victims.
    Mr. Lynch. My time is expired, and I yield back.
    Mr. DeSantis. The gentleman yields back. The chair notes 
the presence of the gentleman from North Carolina, Mr. Meadows, 
a member of the full committee, and without objection, Mr. 
Meadows is welcome to fully participate in today's hearing. 
Without objection, it's so ordered. And that being done, the 
chair now recognizes the gentleman from North Carolina for 5 
minutes.
    Mr. Meadows. Mr. Chairman, I want to say thank you for 
holding this hearing, and, obviously, it is critical, and it's 
the reason why I made it a priority to be here, not only to 
support your efforts, but I know that you have followed very 
closely not only the conflict that is going on in the Middle 
East and the terrorism threat, but fully bringing justice to 
the victims. And so I want to just say thank you.
    Mr. Wiegmann, my concern, Winston Churchill has one of my 
favorite quotes, and it is, ``No matter how beautiful the 
strategy, we must occasionally look at the results.'' And the 
results are not encouraging. In fact, when you were talking 
about how your office helps the victims, I watched people, and 
many of the people at your table were rolling their eyes and 
not agreeing with your premise on helping and keeping them 
informed.
    So I guess one of the questions I have for you is I know 
there are a number of services that are out there in terms of 
helping victims' families, whether it's travel or counseling or 
any of those things. Are those all available to victims' 
families?
    Mr. Wiegmann. I know one program that we operate is called 
the International Terrorism Victims Expense Reimbursement 
Program, so that's a program to reimburse families for----
    Mr. Meadows. But there's multiple agencies. You kind of 
become the point of contact for these families. So, Mr. 
Schwartz, have they reached out to you to let you know all of 
those?
    Mr. Schwartz. I have been in contact, and we have been 
contacted. Who made the initial contacts and sort of who 
reached out to who, we were fortunate to have sources of 
information from many different directions. But, you know, I 
would echo Mr. Roth that there's been no shortage of sympathy 
and accessibility of resources for us.
    Mr. Meadows. But not a whole lot in terms of results from a 
prosecution standpoint?
    Mr. Schwartz. Certainly not results, but it has been very 
early, and there's been some effort to keep us apprised. But if 
there is any American involvement with the investigation, 
we're, as yet, unaware of that.
    Mr. Meadows. So, Mr. Wiegmann, let's talk to that because 
my wife and I just recently got back from Israel. One of the 
most chilling things that I think I sat in a courtroom in 
Israel where six terrorists were being tried. They had a Hamas-
paid attorney, had six of them in leg irons. Several were 
committed to ISIS. Several were committed to Hamas. And with 
pride, almost like they were turning in a paper on a job well 
done, they were smiling and joking with their family in the 
courtroom. I made a commitment at that particular time to say 
that not only do we have to bring justice, but we have to bring 
it quickly.
    And so, I guess the question I have is, knowing that 
there's the pride of these terrorists and many of them feel 
like that they get off so easily, why are the Israelis better 
at bringing them to court than we are here in the United 
States? Is it a lack of resources? Because if it is, you need 
to speak up now.
    Mr. Wiegmann. I wouldn't say it's a lack of resources. It's 
just they're the ones on the ground who are, let's say an 
attack occurs in Jerusalem; they're the ones going to the 
scene. They're collecting the forensic information in a way 
that they would do that in Israel, but may not be the way we 
would have to do it in the United States to ensure that they're 
admitted in a U.S. court.
    Mr. Meadows. So they're not coordinating with you properly. 
Is that--because, I mean, I'll reach out to the Israeli 
Government if that's the----
    Mr. Wiegmann. So the typical case that might be five or six 
Israelis are killed, and then one American is killed, and 
perhaps a Palestinian or someone from a third country, the 
Israelis are going to take the lead in that country. They're 
not going to, in general, have multiple, multi-country 
investigations. Right at the very initial stage, they probably 
haven't even identified the nationalities of the victims at 
stake, much less have a chance to contact the foreign 
governments and get them involved.
    So they're going to, just as we would do here in the United 
States in investigating a case, the FBI is going to do the 
investigation. It's not going to be promptly inviting in--for 
example, in the Boston Marathon bombing, there was a Chinese 
national that was killed. We're not going to be inviting the 
Chinese Government in to help us conduct that investigation.
    So I think the Israelis do it the way that most other 
countries would do it, but they're doing it under Israeli 
priorities and under Israeli laws that are not going to 
necessarily lead to us being able to introduce the evidence 
that they collect in a U.S. court. The way they get statements 
from witnesses and so forth can also be in a manner that we 
can't use them in a U.S. court.
    So don't get me wrong. We can overcome some of these 
obstacles. I wanted you to be aware there are particular 
challenges in these overseas cases.
    Mr. Meadows. So when are you going to overcome these 
obstacles? Because the chairman pointed out from a standpoint 
of the results, as Winston Churchill would say, is we haven't 
seen a whole lot of them, so the point of your office is what?
    Mr. Wiegmann. Well, our office, again, to be clear, it's to 
ensure that justice is done, whether it's done----
    Mr. Meadows. So as long as the Israelis do it, you're fine?
    Mr. Wiegmann. We support all tools. We have whole programs 
at the Department of Justice that is our design to build the 
capacity of foreign countries to prosecute terrorists. We work 
with----
    Mr. Meadows. So Mr. Roth shouldn't expect any further 
action from DOJ?
    Mr. Wiegmann. I wouldn't say that in his particular case. 
I'm just saying that if the Israelis were to sentence the 
attackers in that case to life sentences or adequate terms of 
imprisonment, that's a way to protect our national security and 
ensures accountability.
    Mr. Meadows. Who determines what's adequate?
    Mr. Wiegmann. Well, I don't know. We would have to evaluate 
that, and when they get out of prison----
    Mr. Meadows. Who determines it? Is it Mr. Roth or is it 
you? Who determines what's adequate?
    Mr. Wiegmann. If they get out of prison, and we think it's 
not enough, then we can pursue charges at that time. We have 
done so in many cases. That's one of the things that happened 
in these release cases in 2011, which is they were released 
prematurely as part of a prisoner swap. We were not happy with 
that at all, and we are actively pursuing those cases, I can 
assure you.
    Mr. Meadows. So, Mr. Chairman, you know that you have my 
full support, and I will continue to work with you as you 
continue to illuminate this particular situation. I thank you 
for your leadership, and I yield back.
    Mr. DeSantis. The gentleman yields back. Mr. Wiegmann, one 
of the purported rationales for the Koby Mandell Act was for 
OVT to, ``determine the reasons for the absence of indictments 
of terrorists in some regions,'' and obviously Israel was one 
of those. Has the DOJ actually done that and determined 
specific reasons why Israel would not be getting prosecutions 
while other overseas victims in other areas of the world do? Is 
there a memo, or does it outline the reasons for that?
    Mr. Wiegmann. I'm not familiar with that. You said the 
reasons why there are no charges?
    Mr. DeSantis. Yeah. Determine the reasons for the absence 
of indictments of terrorists in some regions, and I think this 
would be obviously one of those regions where the indictments 
would be lacking.
    Mr. Wiegmann. Of U.S. charges, you mean?
    Mr. DeSantis. Yes.
    Mr. Wiegmann. Yes. I think the reasons would be along the 
lines that we've talked about, although those aren't unique to 
Israel. The challenges that we have would be in any country, 
the ones I identified. It's just that in some cases, we're able 
to overcome those, and others not.
    Mr. DeSantis. Ms. Singer, do you believe that OVT is doing 
what it was set out to do?
    Ms. Singer. So I definitely have a relationship that 
started off very strong with the office. I was in touch with 
them very much. But with all due respect to Mr. Wiegmann, I 
never was even told any information about my attackers, about 
those that planned and carried out the attack. I know that the 
terrorist, you know, died in the attack, but I wasn't told any 
other information until I signed on to the lawsuits that I was 
on, the Arab Bank lawsuit and National Westminster Bank, and 
once I signed there, the lawyers were then able to tell me that 
the terrorists that were the masterminds of my attack were 
currently in jail.
    But any information that I tried to seek further from that, 
from the office, was really, there was none for me. And my 
biggest concern and fear is what happens when those that have 
carried out my attack are released in a swap, in a prisoner 
exchange, and then they're just going to be left free to go to 
other countries. And even countries that we have extradition 
treaties with, they won't be extradited and brought here and be 
put on trial for the murder of Americans and injured Americans, 
which are many, many more than the number 64.
    And I don't want to preclude in saying that not only are 
those numbers, but there are families and extended families and 
communities that are directly impacted by those murders. Our 
family members are the ones that suffer long-term with us, 
especially the survivors, that live with those memories every 
day. And justice for us and accountability and validating what 
we went through is something that we need to see more of.
    We need to make sure that those that have carried out these 
attacks, if they're being let out of jail because of an 
exchange, that their lives are not going to go back as if 
they're heroes, but that they're really going to be prosecuted 
against in this country and be made an example that no one 
should be carrying out attacks against Americans anywhere in 
the world. And I think it's really important that there is more 
movement, and more measures taken to, especially with the ones 
that we've talked about from the Schalit deal, there are a 
number of those with American blood on their hands that could 
be taken and prosecuted.
    Again, for me, I've never received any significant 
information in this area with regard to assistance of ITVERP 
and other areas of psychological, physical. The immediate needs 
for a victim after an attack, the office is very good with, in 
terms of medical needs and reimbursement, but it's really the 
justice portion of it that I have some issues with in terms of 
really wanting to find out what happened and where these people 
are and that they're not going to be released soon.
    Mr. DeSantis. Do you know, Mr. Wiegmann, the status we had 
the murders in Gush Etzion, I think, in November of 2015. There 
was an American that was killed. Are the Israelis currently 
prosecuting that case to your knowledge?
    Mr. Wiegmann. What was the name of the case that you 
mentioned again?
    Mr. DeSantis. There were a handful of people, probably mid-
November of 2015. We can get you the information if you can let 
us. It was the most recent, I believe. Oh, yeah, it was 
Schwartz.
    Mr. Wiegmann. So, yes, the Israelis have opened a 
prosecution in that case, and brought charges in that case. I 
think there are three others; there have been seven. There's 
been an uptick in violence in Israel recently, and there's been 
a number of Americans injured or killed in those attacks. I 
think there are seven cases, and of those seven recent cases 
involving Americans, there are four that the Israelis have 
brought charges, and we're in touch with, have contacted the 
victims and their families in each of those cases and have 
offered our support and services.
    Mr. DeSantis. Okay. Good. Mr. Roth, your testimony was 
great. You really did a good job with that. It was well done, 
so thank you for that. I think you bring up a good point. 
Obviously, when something like this happens, I mean, we want 
justice, but I think everyone would prefer that this stuff just 
does not happen to begin with. You talked about the incitement, 
and you talked about just the lucrative nature of terrorism in 
this society, and American funds are obviously a part of 
propping up the Palestinian Authority, even with the Unity 
Government with Hamas. What is your advice to us about how we 
use tax dollars with respect to the Palestinian Authority?
    Mr. Roth. Look for the return on investment, if I could 
just put that in the simplest of terms. But I'm not very good 
at giving advice, certainly not in this context. I am a little 
bit better at asking questions. And I have to say the one 
question that is rattling around in my brain after hearing some 
of the comments that have been made here and focusing on the 
work of the OVT, what it says it does, what it describes as 
being its goals, what its highest priorities are, I'm struck by 
a triviality, and I mentioned it in my written submission.
    The brochure that's handed out to families who are the 
clientele of the OVT have gone through at least two different 
versions, and you have to look very carefully to see the 
difference because they look identical. But the difference 
between the two is that in one of them, the earlier one, the 
first one, is a section, a significant section headed, ``What 
are the Rights of Victims?'' And in a later version, that 
paragraph has simply been removed. The guidelines haven't 
changed. Nothing's changed. But somebody somewhere--and as I 
say, all I know is to ask questions--has made the decision that 
the rights of the victims perhaps isn't the same kind of 
priority now as it was then.
    Now, I'm not establishing that as a conclusion at all. I'm 
only asking questions. But as a lawyer--and I've practiced law 
as long as most people here in this room--I know that you can't 
simplify the legal process without doing damage to the 
integrity of the process.
    The fact is, things can take time. But speaking as a client 
of the lawyers now, my family and I haven't heard a thing for 4 
years. I've learned a lot about the perpetrators of the murder 
of my daughter, but it's come through the legal offices of 
Twitter, and Facebook, and YouTube. That's not consistent with 
the self-description of the OVT. I have, and I mean this 
sincerely, the utmost empathy with the people doing the job, 
and I know how tough it is to be a lawyer with unreasonable 
demands of oversight committees and difficult clients, but we 
have seen nothing, and the nothing is rattling around in my 
brain as a question, not as a conclusion.
    Mr. DeSantis. Thank you. Mr. Lynch, do you have anything 
further?
    Mr. Lynch. Sure.
    Mr. DeSantis. The chair now recognizes the gentleman from 
Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman. Mr. Wiegmann, the 
Office of Justice For the Victims of Overseas Terrorism, OVT, 
that's in your department. Is that correct?
    Mr. Wiegmann. Yes, sir, that's correct.
    Mr. Lynch. Then we have the Office of Victims of Crime. Is 
that in your department as well?
    Mr. Wiegmann. It's in the Department of Justice, not in my 
division, but it's in the criminal division.
    Mr. Lynch. That's regarding victims' expenses, 
reimbursement programs?
    Mr. Wiegmann. That's correct.
    Mr. Lynch. Then we have--the FBI has an Office of Victims 
Assistance straight up, right?
    Mr. Wiegmann. Correct.
    Mr. Lynch. And that's totally different?
    Mr. Wiegmann. Yes.
    Mr. Lynch. Ms. Singer, you've worked with dozens of 
Americans affected by overseas terrorism, and you, yourself, 
obviously are a victim of bombing in Israel. In your testimony, 
you said that you thought that many victims that you worked 
with have never even heard of OVT or its services. Is that your 
testimony here today?
    Ms. Singer. Yes.
    Mr. Lynch. You know, it seems scattered. I know these 
different agencies were created in response to different 
issues. But you got people at State. You got people with you at 
DOJ. Then you've got people at FBI. And, you know, you think 
that with all those agencies, if they were doing what they 
should be doing, victims and their families, they shouldn't be 
waiting 4 years without information. Especially when, as you 
say, it's out there on Twitter and other media platforms.
    I'm just wondering if there's a way to consolidate this and 
do it in a way that actually serves the people. I think we're 
running into a problem where it's everybody's job, so nobody's 
doing it. That's the problem. And I'm just wondering if we have 
accountability with one agency and it's their job and we can 
hold them accountable if it doesn't happen? I just think that 
it works in harmony with all of our incentives here, which is, 
you want to get as much information to the victims' families as 
possible. Right now it seems like it's three or four different 
agencies have this responsibility, and nobody's really doing it 
to the extent that it needs to be done.
    Mr. Wiegmann. So let me just comment first that you're 
absolutely right that in keeping the victims informed, and 
serving as that liaison function is job one. If we're not doing 
that, we're not doing our jobs, in other words, being a liaison 
with the victims, keeping them informed of the developments in 
their case, telling them as much as we can about the scope of 
the investigation, if charges are brought, keeping them 
apprised of the progress of the prosecution, telling them their 
rights, as Mr. Roth said. These are statutory mandates that 
Congress has created, and we have an obligation to fulfill. We 
needed to try to do that in every single case, and we work hard 
to do that to reach out to the victims; but if there's a case 
where that's not happening, then we need to correct that.
    In terms of having the different offices, they really do 
perform different functions. OVT was actually the latecomer 
that Congress created in 2005. The Office of Victims' 
Assistance at FBI is the kind of what I would analogize as the 
first responder. They're the ones who are often the first ones 
to contact victims. They're providing some of those immediate 
social services and things like that to victims to assist them. 
They also have a much broader mandate. It's not just terrorism, 
so it's any crime. They're protecting all crime victims, so 
they have a much broader and different mandate.
    Then you have victim-witness coordinators at U.S. 
attorneys' offices. I know this can be confusing, but just bear 
with me just a minute. Those folks are helping when there's a 
U.S. prosecution. So if it's brought in Illinois or Georgia or 
California, the U.S. Attorney's office will have someone 
assigned to work with the victims in conjunction with those 
cases.
    So the gap that OVT fills is for these overseas cases. So 
how do we help people know their rights in Israeli or France or 
Brazil, or wherever the case may be, understand what their 
rights are under foreign law and how they can interface and 
help them participate in those proceedings and provide victim 
impact statements and do the other things that we do?
    So that's why we have different offices, and we try to have 
all these offices work together as appropriate.
    Mr. Lynch. Okay. I've exhausted my time. I yield back.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentleman from North Carolina.
    Mr. Meadows. Mr. Chairman, I'll be very brief. Mr. 
Wiegmann, I asked earlier if it was lack of funding, how can we 
help? So here is my request of you and my challenge to you. It 
seems curious that I would have two people at a particular 
witness table that would indicate that there is a failure to 
communicate on not only a regular basis, but they're finding 
out more information, whether it's a lawsuit or Twitter or 
Facebook, than they are from the appropriate agency.
    You just described the agencies and what they did, and I'm 
confused. I mean, it's like spaghetti, and you don't know where 
to start and where to stop, and so here's what my request of 
you, is, can you put together a task force within DOJ that 
makes a commitment to all victims, not just the three that we 
have here today, to provide regular updates, to let them know 
what their rights are, to put it back in a brochure to make 
sure that every victim's family gets something as a disclosure 
that says you can count on this, you can count on this, and you 
can count on this.
    And if you're not getting that, then let your Member of 
Congress know, or let us know, or the appropriate person know. 
Are you willing to commit today to get that available to the 
hundreds of victims that are out there and victims' families 
and make a commitment to this committee and the chairman and 
the ranking member today?
    Mr. Wiegmann. That's our mission. That's what we should be 
doing. As I said----
    Mr. Meadows. I understand that's your mission, but let me 
just tell you, you're failing at part of your mission, Mr. 
Wiegmann. And so I'm asking you, are you willing to make a 
commitment, and if so, by what date can this committee count on 
that?
    Mr. Wiegmann. So you're saying to create a task force to--
--
    Mr. Meadows. It doesn't even have to be a task force. Just 
get it done where victims can understand what their rights are 
and what's available to them where they can count on it so they 
don't have to have an attorney figure out the legalese that you 
just went through.
    Mr. Wiegmann. That's absolutely our commitment to the 
victims, and so I can make that commitment today. We owe that 
to the victims, and I'm certainly happy right after this 
hearing, we can chat if you feel like you're not getting what 
you need from our office. We can meet. We can arrange meetings 
for you, whatever you guys want because we do owe that to the 
victims.
    Mr. Meadows. I do appreciate that. But here's what I don't 
want to happen, is one conversation that happens because you're 
feeling the heat today because the chairman called this 
particular hearing. What I want it to be is a report back to 
the chairman and say this is the process of how we're going to 
keep all victims and their families informed and of their 
rights from here on out. Can you do that within the next 120 
days?
    Mr. Wiegmann. We can absolutely get you something on that.
    Mr. Meadows. Thank you. Mr. Chairman, I yield back.
    Mr. DeSantis. The gentleman yields back. I want to thank 
the witnesses for coming. I think the testimony from our 
victims and family members was phenomenal. I think it was very, 
very powerful. I think it was necessary, and I think it's going 
to help the Department of Justice perform better at this 
function.
    We face, as Americans, a global jihad, and Israel is ground 
zero for that fight. And when we have Americans visiting, 
studying, living in Israel, and they're killed, they're wounded 
by terrorists, we're not going to forget that. We can't forget 
that. And we will get justice. And we'll be patient if we need 
to be, but we are not going to let justice be denied. So thank 
you guys for attending, and this hearing is now adjourned.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
               


                                 [all]
</pre></body></html>
